<html>
<title> - MARKUP OF: H.R. 4093, H.R. 4094, H.R. 2751, H.R. 2882, H.R. 776, H.R. 4121, H.R. 2452</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
 MARKUP OF:  H.R. 4093,  H.R. 4094,  H.R. 2751,  H.R. 2882,  H.R. 
                     776,  H.R. 4121,  H.R. 2452

=======================================================================


                                 MARKUP

                               before the

                      COMMITTEE ON SMALL BUSINESS
                      
                             UNITED STATES
                             
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MARKUP HELD
                             MARCH 5, 2014

                               __________

                               [GRAPHIC] [TIFF OMITTED] 
                               

            Small Business Committee Document Number 113-056
              Available via the GPO Website: www.fdsys.gov
              
 
                                  ________
                                  
                      U.S. GOVERNMENT PUBLISHING OFFICE 

93-958 PDF                    WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                   HOUSE COMMITTEE ON SMALL BUSINESS

                     SAM GRAVES, Missouri, Chairman
                           STEVE CHABOT, Ohio
                            STEVE KING, Iowa
                         MIKE COFFMAN, Colorado
                      BLAINE LUETKEMEYER, Missouri
                     MICK MULVANEY, South Carolina
                         SCOTT TIPTON, Colorado
                   JAIME HERRERA BEUTLER, Washington
                        RICHARD HANNA, New York
                         TIM HUELSKAMP, Kansas
                       DAVID SCHWEIKERT, Arizona
                       KERRY BENTIVOLIO, Michigan
                        CHRIS COLLINS, New York
                        TOM RICE, South Carolina
               NYDIA VELAAZQUEZ, New York, Ranking Member
                         KURT SCHRADER, Oregon
                        YVETTE CLARKE, New York
                          JUDY CHU, California
                        JANICE HAHN, California
                     DONALD PAYNE, JR., New Jersey
                          GRACE MENG, New York
                        BRAD SCHNEIDER, Illinois
                          RON BARBER, Arizona
                    ANN MCLANE KUSTER, New Hampshire
                        PATRICK MURPHY, Florida

                      Lori Salley, Staff Director
                    Paul Sass, Deputy Staff Director
                      Barry Pineles, Chief Counsel
                  Michael Day, Minority Staff Director
                  
                  
                            C O N T E N T S

                           OPENING STATEMENTS

                                                                   Page
Hon. Sam Graves..................................................     1
Hon. Nydia Velaazquez............................................     2

                                APPENDIX

Additional Material for the Record:
    The Associated General Contractors of America................    40
    The American Legion..........................................    41
    The American Institute of Architects.........................    42
    The American Subcontractors Association, Inc.................    44
    The American Society of Civil Engineers (ASCE)...............    46
    Independent Electrical Contractors (IEC).....................    47
    Maralina Corporation.........................................    49
    Minority Business RoundTable (MBRT)..........................    51
    NORBIC.......................................................    55
    The Surety & Fidelity Association of America (SFAA)..........    56
    Veterans' Entrepreneurship Task Force (VET-Force)............    63
    Women Impacting Public Policy (WIPP).........................    65
    H.R. 4093, ``Greater Opportunities for Small Business Act of 
      2014''.....................................................    66
    H.R. 4094, ``Contracting Data and Bundling Accountability Act 
      of 2014''..................................................    68
    H.R. 2751, ``Commonsense Construction Contracting Act of 
      2013''.....................................................    74
    H.R. 2882, ``Improving Opportunities for Service-Disabled 
      Veteran-Owned Small Businesses Act of 2013''...............    77
    H.R. 776, ``Security in Bonding Act of 2013''................    84
    H.R. 4121, ``Small Business Development Centers Improvement 
      Act of 2014''..............................................    86
    H.R. 2452, ``Women's Procurement Program Equalization Act of 
      2013''.....................................................    92
    Amendment to H.R. 4093 Offered by Ms. Chu of California......    96
    Amendment to H.R. 4094 Offered by Ms. Chu of California......    97
    Amendment to the Amendment in the Nature of a Substitute to 
      H.R. 2882 Offered by Ms. Kuster of New Hampshire...........    98
    Amendment to the Amendment in the Nature of a Substitute to 
      H.R. 2882 Offered by Ms. Hahn of California................    99
    Amendment to the Amendment in the Nature of a Substitute to 
      H.R. 2882 Offered by Ms. Velaazquez of New York............   100
    Amendment to H.R. 4121 Offered by Mr. Murphy of Florida......   101
    Amendment to H.R. 4121 Offered by Mr. Payne of New Jersey....   103


   MARKUP OF: <bullet> H.R. 4093, ``GREATER OPPORTUNITIES FOR SMALL 
   BUSINESS ACT OF 2014'' <bullet> H.R. 4094, ``CONTRACTING DATA AND 
BUNDLING ACCOUNTABILITY ACT OF 2014'' <bullet> H.R. 2751, ``COMMONSENSE 
CONSTRUCTION CONTRACTING ACT OF 2013'' <bullet> H.R. 2882, ``IMPROVING 
 OPPORTUNITIES FOR SERVICE-DISABLED VETERAN-OWNED SMALL BUSINESSES ACT 
   OF 2013'' <bullet> H.R. 776, ``SECURITY IN BONDING ACT OF 2013'' 
 <bullet> H.R. 4121, ``SMALL BUSINESS DEVELOPMENT CENTERS IMPROVEMENT 
    ACT OF 2014'' <bullet> H.R. 2452, ``WOMEN'S PROCUREMENT PROGRAM 
                       EQUALIZATION ACT OF 2013''

                              ----------                              


                        WEDNESDAY, MARCH 5, 2014

                  House of Representatives,
               Committee on Small Business,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 1:00 p.m., in Room 
2360, Rayburn House Office Building. Hon. Sam Graves [chairman 
of the Committee] presiding.
    Present: Representatives Graves, Chabot, Coffman, 
Luetkemeyer, Mulvaney, Tipton, Herrera Beutler, Hanna, 
Huelskamp, Schweikert, Bentivolio, Collins, Rice, Velaazquez, 
Schrader, Clarke, Chu, Hahn, Payne, Meng, Barber, McLane 
Kuster, and Murphy.
    Chairman GRAVES. We will go ahead and call the meeting to 
order and get everybody in. We have got a vote at approximately 
1:15, which we will have to postpone or at least we will have 
to recess for a short period of time during the markup. But 
with that we will just kind of play it by ear.
    Today, what we are going to be doing, we are marking up 
several bills. The Federal Government routinely spends 
approximately half a trillion dollars through prime contracts 
each and every year, and surely that small businesses can 
compete for these contracts offers several benefits. One, 
business growth. Another, job creation. Greater competition, 
lower prices, and innovation. And over the past four years I 
have made it a priority to enact some reforms to increase small 
businesses' ability to compete in the federal marketplace, and 
I am proud of some of our legislative accomplishments.
    In the 112th Congress, the Committee reported out 11 
contracting reform bills, many of which are now law, and I 
believe that through those efforts, the legislation we passed 
last year and the bills that we are going to mark up today, it 
is going to improve the ability of small contractors to 
successfully compete.
    We focused on a lot of what I will call the 3 C's--clarity, 
competition, and consequences. In terms of clarity, our efforts 
ensure that small business contracting laws are understandable, 
comprehensive, and they promote transparency, and to that end 
we have passed reforms addressing and improving the roles of 
small business advocates, the process for determining which 
firms are small, the way SBA reports on goals, the way the 13 
mentor-proteegee programs interact, the way small business team 
on contracts, and the rules around suspension and debarment.
    Further, together we have helped small businesses compete. 
We have required that all acquisition plans address the use of 
small businesses. We have increased the role of small business 
advocates in the acquisition planning process, and we have 
expanded the number of contracts counted towards the small 
business goals, which means more opportunities for small 
businesses.
    And finally, we worked on consequences, which are holding 
businesses and agencies responsible. And to that end, we have 
made it easier to suspend and debar bad actors. We have also 
imposed penalties on firms acting as fronts for large 
businesses in an attempt to misuse the SBA's contracting 
programs. We have required agencies to create mitigation plans 
when they fail to meet their goals. We have held large 
businesses accountable for their subcontracting plans, and we 
have tied senior executive bonuses to small business goals.
    Today, we are going to continue our work on clarity, 
competition, and consequences, and we will be marking up five 
contracting bills introduced by the Majority-Plus Contracting 
Bill and a bill addressing Small Business Development Centers, 
which is introduced by the ranking member. I believe that this 
is a very collaborative effort and is a testament to the 
importance of government contracting for small businesses and 
it is a tribute, I believe, to the bipartisan nature of the 
Committee.
    And while we will briefly discuss each of the bills 
individually before we mark it up, I want to emphasize how 
important these issues are to both small businesses and the 
taxpayers. When small businesses compete for these contracts 
something important happens and that is jobs. Jobs are created. 
Innovation occurs, competition brings down prices, and in 
short, when small businesses win, I think that we all win.
    I now recognize Ranking Member Velaazquez for her opening 
statement.
    Ms. VELAAZQUEZ. Thank you, Mr. Chairman.
    This committee has worked well together on procurement 
issues, exposing fraud, waste, and abuse and improving how SBA 
functions. It is my hope that today's discussion will further 
that tradition. For small businesses, federal agencies can be a 
great client. Last year, the federal government spent $461 
billion purchasing goods and services, everything from 
paperclips, to airplanes, to landscaping, to construction are 
required throughout the public sector, and small companies are 
vital to meeting these needs.
    Congress, and this committee in particular, have long 
recognized the benefits that stem from small business 
participation in the federal marketplace, helping small firms 
secure these opportunities foster job growth, help small 
businesses grow into larger ones, and create greater overall 
economic prosperity.
    At the same time when entrepreneurs are enlisted to meet 
government's procurement needs, American taxpayers' dollars are 
well spent. Small businesses provide excellent services and 
quality products at competitive prices. Moreover, bringing 
additional small companies into the procurement fold increases 
competition, raising the quality of services and products 
available to the government.
    Given the benefits of having government do business with 
small enterprises, it is important that federal agencies meet 
their contacting goals. Unfortunately, this has not happened. 
The 23 percent small business contracting goal has not been met 
in many years, although it appears that objective may finally 
be met this year. Similar initiatives aimed at helping women-
owned businesses have fallen short. The Service-Disabled 
Veteran-Owned Small Business program has also not kept pace. 
The SBA is responsible for ensuring other agencies are 
proactively working to meet their small business contracting 
goals.
    Through hearings, oversight, and investigations, this 
committee has carefully examined why the SBA has repeatedly 
failed in this regard. Our efforts also help identify possible 
solutions. It is my hope that the committee can work together 
in crafting legislation that will make these programs function 
more effectively.
    We also must not ignore other elements of the SBA 
portfolio. At a time when our economy is still struggling with 
job creation, entrepreneurship is vital. As such, we must 
endeavor to ensure SBA's entrepreneurial development programs 
remain up-to-date, providing the tools that help Americans 
launch new businesses. I look forward to that discussion today 
as well.
    Mr. Chairman, our economy remains in a difficult spot. We 
all acknowledge that. While progress has been made, we have a 
long way to go. Congress will be remiss to ignore the absolute 
vital role small businesses will play in restoring our nation's 
prosperity. Today's actions should provide a starting point in 
addressing some of the policy obstacles that are impeding small 
business growth.
    I thank the Chairman again, and I yield back.
    Chairman GRAVES. Thank you.
    Do any other members wish to be recognized for the purpose 
of an opening statement?
    Seeing none, we will move on.
    We are going to be marking up seven bills today, and we are 
going to do it in the order that they were noticed.
    H.R. 4093
    The first bill is H.R. 4093, the Greater Opportunities for 
Small Business Act 2014, which I did introduce with Mr. Hanna, 
Ms. Herrera Beutler, and Mr. Murphy. This bill does three 
things. What it does is raise the Federal Government small 
business prime contracting goal from 23 percent to 25 percent. 
It raises the subcontracting goal from 35.9 to 40 percent and 
ensures that only prime contracts are counted towards the prime 
contracting goal. Last year, the government spent $460 billion 
through prime contracts, and the preliminary data shows for the 
first time in seven years, the percentage awarded to small 
businesses exceeded 23 percent, and I believe this demonstrates 
that the tools we have given agencies to meet the small 
business goals and the focus we are placing on federal 
contracting, I think it is working.
    Given that federal spending failed by $40 billion during 
the same period, it also illustrates that doing more with small 
businesses is good for taxpayers. Thus, raising the goals will 
help small businesses compete. It is going to help taxpayers, 
and it is going to help the government operate more 
efficiently. And I urge support for the bill.
    I recognize Ranking Member Velaazquez for her remarks on 
4093.
    Ms. VELAAZQUEZ. Thank you, Mr. Chairman.
    I support this bill. It would be difficult to overstate the 
significance of the federal marketplace to the small business 
sector. As of now, it appears that in 2013, small firms were 
awarded $83.2 billion in federal contracts. While these numbers 
could see revision before SBA releases its annual scorecard, 
this preliminary data suggests that for the first time since 
2005, the federal government may finally reach its goal of 
awarding 23 percent of contracts to small firms. While this 
constitutes progress, it is well past due and it is certainly 
not enough. Let us remember, every single year federal agencies 
miss their contracting goals amounts to billions of dollars in 
lost revenue for entrepreneurs.
    In that regard, the issue raised by H.R. 4093, raising the 
federal government's statutory small business procurement goal, 
is a timely one. The bill also increases the government's 
subcontracting goals and it eliminates a loophole that has 
inhibited small business participation in the Department of 
Energy contracts. Given the real tangible benefit that stems 
from using small businesses for federal projects, it makes 
perfect sense to discuss raising this threshold. Small 
businesses deserve better. It is my hope that the committee and 
Congress will work to ensure agencies do more to incorporate 
entrepreneurs into the procurement effort. It is a win-win for 
government, for taxpayers. It is a win-win for the small 
business sector.
    I yield back.
    Chairman GRAVES. Well said.
    Are there any other members that wish to be recognized for 
a statement on H.R. 4093?
    Seeing none, the Committee now moves to consideration of 
H.R. 4093. Will the clerk please report the title of the bill?
    CLERK. H.R. 4093, to amend the Small Business Act to raise 
the prime and subcontract goals and for other purposes.
    Ms. HERRERA BEUTLER. Mr. Chair?
    Chairman GRAVES. What is that?
    Ms. CHU. I have an amendment at the desk.
    Chairman GRAVES. Without objection, H.R. 4093 is considered 
read and open for amendment at any point.
    At this point I think we will just recess and we will come 
back. We have two amendments on 4093. Amendment 1 from Ms. Chu 
and Amendment 2 from Ms. Clarke. We will pick those up just as 
soon as we get back.
    So we will recess. I think we have got three votes, so we 
will recess temporarily. Thanks.
    [Recess]
    Chairman GRAVES. We will go ahead and call the markup back 
to order. And we are presently on Bill 4093.
    The first amendment up is Ms. Chu.
    Ms. CHU. Yes. I have an amendment at the desk.
    Chairman GRAVES. Clerk, please report the amendment.
    CLERK. Amendment 1 to H.R. 4093 offered by Ms. Chu of 
California. Add at the end of the bill the following: Section 
4----
    Chairman GRAVES. Without objection, the bill or the 
amendment, I mean, is considered as read, if that is all right.
    No objections?
    The gentlelady is recognized for five minutes.
    Ms. CHU. Thank you, Mr. Chair.
    I strongly support the efforts of the Committee in ensuring 
that small businesses receive a greater share of government 
contracts. Providing more opportunities for small businesses to 
compete for contracts will create jobs and strengthen our 
economy. We must ensure that government contracting money is 
spent in such a way that maximizes the potential economic 
growth. This is why I am introducing this amendment, which 
would increase the federal contracting goal for women-owned 
small businesses to 6 percent, and I am proud to have the 
support of my colleagues, Representatives Clarke, Hahn, Meng, 
Barber, Kuster, and Murphy.
    Women make up 50 percent of the workforce, but the current 
goal for women-owned businesses is only 5 percent. Also, women-
owned businesses lag behind male-owned businesses. The average 
revenue of women-owned businesses is only 27 percent of the 
average revenue of male-owned businesses. By granting a larger 
share of government contracts to women-owned small businesses, 
we will encourage women in the workforce to start their own 
firms. As business owners, not only will they be able to earn 
more for themselves and their families, they will also create 
jobs and contribute more to the economy. Increasing this 
contracting goal to 6 percent will give women-owned small 
businesses the opportunity to access billions more in federal 
contracts. It is imperative that the government spends its 
contracting dollars where they can do the most good and women-
owned small businesses offer us great potential for growth.
    With that, I ask for the Committee's support, and I yield 
back.
    Chairman GRAVES. Does any other member wish to be heard on 
the amendment?
    Mr. BARBER. Mr. Chairman, I move to strike the last word.
    Chairman GRAVES. Who said that? Go ahead.
    Mr. BARBER. Thank you, Mr. Chairman. And thank you, 
Congresswoman Chu, for this amendment, which I am pleased to be 
a cosponsor.
    I strongly support this concept of increasing the 
contracting goal for women-owned small businesses from 5 to 6 
percent, and I was a proud cosponsor of this amendment with the 
congresswoman. I know that we have to do more to help women-
owned businesses in this country, and the Federal Government 
must lead by example when it comes to supporting women-owned 
businesses across the nation. This amendment is one small step 
that we can take to help women-owned businesses succeed, and I 
encourage my colleagues on both sides of the aisle to support 
this amendment.
    Thank you, Mr. Chairman. I yield back.
    Chairman GRAVES. Does any other member----
    Mr. Murphy?
    Mr. MURPHY. Mr. Chairman, I move to strike the last word.
    Chairman GRAVES. Sure.
    Mr. MURPHY. Thank you.
    I support the distinguished lady from California, Ms. Chu's 
amendment to increase the federal contracting goal for women-
owned small business. With March as Women's History Month, it 
is the perfect time to recognize the irreplaceable 
contributions women make to our economy. For example, women 
have improved the average education level of America's 
workforce, and women lead some of the most innovative companies 
in the nation. Women like Shirley Brostmeyer and Denise 
Castronova run vital businesses in my district. Ms. Brostmeyer 
is CEO of Florida Turbine Technologies, which develops cutting-
edge jet engine innovations, and Ms. Castronova is owner and 
founder of Castronova Chocolates, which produces some of the 
best chocolate I have ever had. In addition to recognizing 
women's equal role in the workforce, we must acknowledge that 
women still are paid a fraction of what men earn for identical 
work.
    Representative Chu's amendment is one step in the right 
direction to level the playing field for women in business, and 
I trust my colleagues will support it unanimously. When women 
succeed, America succeeds.
    Thank you, Mr. Chair.
    Chairman GRAVES. Any other member wish to be heard on the 
amendment?
    Ms. HAHN. I do.
    Chairman GRAVES. Ms. Hahn?
    Ms. HAHN. Thank you, Mr. Chairman.
    I move to strike the last word. And I want to thank my 
colleague, Congresswoman Chu from California. I am proud to 
join her in offering this very important amendment. Government 
contracts offer small businesses of all kinds an opportunity to 
grow, to hire, and contribute to their local economy, but too 
often certain groups of small business owners are left out of 
these benefits. The lack of federal contracts going to women-
owned small businesses is well documented and unacceptable, but 
we are making progress, and I am proud to offer this amendment 
with my colleagues that pushes us further. I am happy to 
support the Greater Opportunities for Small Business Act, and I 
hope that we can make sure that while we increase contracting 
with small businesses, we ensure that women small business 
owners see more opportunities as well.
    Thank you, and I yield back.
    Chairman GRAVES. Any other member wish to be heard?
    Ms. MENG. I move to strike the last word.
    Chairman GRAVES. Ms. Meng?
    Ms. MENG. I want to thank Congresswoman Chu for her 
leadership on this amendment. As we move to increase the small 
business contracting goal, it is important to secure additional 
opportunities for women and not leave contracting parity to 
chance. March is Women's History Month, and I cannot think of a 
better way for the Committee to do its part than by passing 
this amendment. A 1 percent increase can result in billions of 
dollars of federal contracts for women-owned businesses.
    Thank you. I yield back.
    Chairman GRAVES. Any other member?
    Ms. CLARKE. Mr. Chairman? Mr. Chairman, I would like to 
strike the last word.
    I, too, would like to take a minute to thank Ms. Chu for 
authoring, and my democratic colleagues who, along with myself, 
joined Ms. Chu as cosponsors of this amendment. Ever mindful 
that when women succeed, America succeeds, more and more women 
are swelling the ranks of our nation's entrepreneurs. As such, 
it is important that we, as legislators, adjust our 
expectations to better reflect the diverse assortment of 
entrepreneurs and assist them as they create the jobs that will 
assist them as they create the jobs that will sustain our 
economy.
    Again, I would like to thank Ms. Chu, and I urge my 
colleagues to support this common sense amendment. And I yield 
back, Mr. Chairman.
    Chairman GRAVES. Ms. Kuster?
    Ms. KUSTER. Thank you, Mr. Chairman. I move to strike the 
last word.
    I also thank Congresswoman Chu for her leadership on behalf 
of women entrepreneurs and small business owners across the 
country. I am proud to partner with you on this common sense 
amendment.
    Just two weeks ago, I hosted the first in a series of 
roundtables with women business leaders in Salem, New 
Hampshire. We discussed obstacles facing women entrepreneurs, 
including limited access to capital, technical assistance, and 
federal contracting opportunities. We can all agree that when 
women succeed, our entire economy and our country succeeds. By 
helping to level the playing field for women-owned businesses, 
this amendment would foster greater competition in contracting 
marketplaces and result in greater savings and options for 
America's taxpayers. I urge all of our colleagues to support 
this common sense amendment, and I yield back.
    Chairman GRAVES. Does any other member wish to be heard on 
the amendment?
    Ms. VELAAZQUEZ. Mr. Chairman?
    Chairman GRAVES. Ranking Member Velaazquez?
    Ms. VELAAZQUEZ. I rise to strike the last word.
    I just want to thank Congresswoman Chu for this amendment. 
The reality is that women employ more than 13 million people, 
are generating $1.9 trillion in sales, and women businesses are 
here to stay, and they play an important role in our economy. 
The women-owned business contracting goal is now 20 years old. 
With women's role in the small business sector growing, we must 
take steps to update the federal contracting policy so that it 
reflects the new realities.
    On that note, I urge support of this amendment. Thank you.
    Chairman GRAVES. Does any other member wish to be heard on 
the amendment?
    As chairman of the Small Business Committee, I have always 
tried not to favor one particular group over another, or 
picking winners and losers. And we actually have four 
subcategories of small business goals. And I think that if we 
are going to increase the overall small business goal and there 
is going to be an extra $10 billion out there to compete for, I 
think that all small businesses ought to have that opportunity 
instead of trying to single out and give an advantage to one 
subcategory over another. So I do not support the amendment.
    And with that, the question is on the amendment offered by 
Ms. Chu, which is Amendment 1, to 4093.
    All those in favor say aye.
    All those opposed no.
    It is the opinion of the chair the noes have it.
    Ms. CHU. Mr. Chair, I ask for a recorded vote.
    Chairman GRAVES. A recorded vote has been called.
    Clerk, please call the roll.
    CLERK. Mr. Graves?
    Chairman GRAVES. No.
    CLERK. Mr. Graves votes no.
    Mr. Chabot?
    Mr. CHABOT. No.
    CLERK. Mr. Chabot votes no.
    Mr. King?
    [No response]
    Mr. Coffman?
    Mr. COFFMAN. No.
    CLERK. Mr. Coffman votes no.
    Mr. Luetkemeyer?
    Mr. LUETKEMEYER. No.
    CLERK. Mr. Luetkemeyer votes no.
    Mr. Mulvaney?
    Mr. MULVANEY. No.
    CLERK. Mr. Mulvaney votes no.
    Mr. Tipton?
    Mr. TIPTON. No.
    CLERK. Mr. Tipton votes no.
    Ms. Herrera Beutler?
    [No response]
    Mr. Hanna?
    Mr. HANNA. No.
    CLERK. Mr. Hanna votes no.
    Mr. Huelskamp?
    Mr. HUELSKAMP. No.
    CLERK. Mr. Huelskamp votes no.
    Mr. Schweikert?
    [No response]
    Mr. Bentivolio?
    Mr. BENTIVOLIO. No.
    CLERK. Mr. Bentivolio votes no.
    Mr. Collins?
    Mr. COLLINS. No.
    CLERK. Mr. Collins votes no.
    Mr. Rice?
    [No response]
    Ms. Velaazquez?
    Ms. VELAAZQUEZ. Aye.
    CLERK. Ms. Velaazquez votes aye.
    Ms. Clarke?
    Mr. Schrader?
    Mr. SCHRADER. Aye.
    CLERK. Mr. Schrader votes aye.
    Ms. Clarke?
    Ms. CLARKE. Aye.
    CLERK. Ms. Clarke votes aye.
    Ms. Chu?
    Ms. CHU. Aye.
    CLERK. Ms. Chu votes aye.
    Ms. Hahn?
    Ms. HAHN. Aye.
    CLERK. Ms. Hahn votes aye.
    Mr. Payne?
    Mr. PAYNE. Aye.
    CLERK. Mr. Payne votes aye.
    Ms. Meng?
    Ms. MENG. Aye.
    CLERK. Ms. Meng votes aye.
    Mr. Schneider?
    [No response]
    Mr. Barber?
    Mr. BARBER. Aye.
    CLERK. Mr. Barber votes aye.
    Ms. Kuster?
    Ms. KUSTER. Aye.
    CLERK. Ms. Kuster votes aye.
    Mr. Murphy?
    Mr. MURPHY. Aye.
    CLERK. Mr. Murphy votes aye.
    Chairman GRAVES. Are there any other members that wish to 
vote?
    Ms. Herrera Beutler?
    Ms. HERRERA BEUTLER. Aye.
    CLERK. Ms. Herrera Beutler votes aye.
    Chairman GRAVES. Does any other member wish to be heard on 
the amendment?
    Seeing none.
    Ms. HERRERA BEUTLER. I request that you change my vote from 
aye to nay.
    Chairman GRAVES. Ms. Herrera Beutler requests from aye to 
nay.
    CLERK. Ms. Herrera Beutler changes from aye to nay.
    Chairman GRAVES. Any other members wish to be recorded?
    Seeing none, please report the vote.
    CLERK. The noes are 11, the ayes----
    Mr. CHABOT. Mr. Chairman, how was I recorded?
    Chairman GRAVES. How was Mr. Chabot recorded?
    CLERK. As a no.
    Chairman GRAVES. Any other members wish to be recorded?
    CLERK. Mr. Schweikert?
    Mr. SCHWEIKERT. No.
    CLERK. Mr. Schweikert votes no.
    Chairman GRAVES. All right.
    CLERK. The ayes are 10, the noes are 12.
    Chairman GRAVES. Last vote, the ayes are 10, the noes are 
12. The amendment is not agreed to.
    The next Amendment 2, Bill 4093, Ms. Clarke.
    Ms. CLARKE. Mr. Chairman, I have an amendment at the desk.
    Chairman GRAVES. Clerk, please report the amendment.
    CLERK. Amendment 2 to H.R. 4093 offered by Ms. Clarke of 
New York. Add at the end of the bill the following----
    Chairman GRAVES. Without objection, the amendment is 
considered read.
    The gentlelady has five minutes.
    Ms. CLARKE. Thank you, Mr. Chairman.
    My very straightforward amendment is simply an amendment of 
the socially and economically disadvantaged small businesses 
participation. To ensure that our national recovery enjoys 
strong and robust growth, it is essential that all of our 
nation's small businesses are fully engaged and active 
participants. Given the steady growth and participation, it is 
essential that we recognize this growth and make adjustments to 
reflect this reality.
    I urge my colleagues to support this common sense 
amendment, and I yield back, Mr. Chairman.
    Chairman GRAVES. Any other member wish to be heard on the 
amendment?
    Ms. VELAAZQUEZ. Mr. Chairman?
    Chairman GRAVES. Ranking Member Velaazquez?
    Ms. VELAAZQUEZ. I rise in support of this amendment.
    One area where the federal government has made some 
progress in its procurement goal is in regards to economically 
and socially disadvantaged individuals. This standard has 
historically been set at 5 percent, yet in recent years the 
federal government has supplied as much as 8 percent of its 
outsource projects to this class of business. Ethnic minorities 
and people of color benefit from this program, as do female 
entrepreneurs. The program is also important in encouraging 
entrepreneurs from lower income backgrounds to succeed. As 
federal agencies are regularly exceeding the goals set for this 
program, it only makes sense that we would ask them to do more. 
As the face of American small business changes, so too should 
our federal policies that govern contracting for small 
businesses.
    I believe the gentlewoman's amendment is a good one that 
fits well with the overall intention of the broader bill. I 
therefore thank my friend from New York and yield back the 
balance of my time.
    Chairman GRAVES. Does any other member wish to be heard on 
the amendment?
    Mr. CHABOT. Mr. Chairman?
    Chairman GRAVES. Mr. Chabot?
    Mr. CHABOT. Move to strike the last word.
    Mr. Chairman, I will be very brief. I would just like to 
reiterate the chairman's comments that I think the purpose--
those that are voting no are not opposed to any of these 
particular groups having access, equal access to the contracts 
that are available, but we think it ought to be an equal 
opportunity and we ought not to pick winners and losers. And 
that is why I think the folks on this side are voting no, not 
because we have any antipathy or opposition to various groups 
getting these contracts.
    And each one of these, Mr. Chairman, I would ask the chair 
a question. Each one of these groups would have an equal 
opportunity to get access to these funds, is that correct?
    Chairman GRAVES. Absolutely.
    Mr. CHABOT. Okay. Thank you very much. I yield back my 
time.
    Chairman GRAVES. Mr. Tipton?
    Mr. TIPTON. Move to strike the last word.
    I do have a question actually for the sponsor of the 
amendment. If you would be so kind, what is the dollar amount 
that you are designating as economically disadvantaged? Where 
is that reflected in the amendment?
    Ms. CLARKE. I am sorry, what do you mean by dollar amount?
    Mr. TIPTON. Well, your amendment states ``economically and 
socially disadvantaged.''
    Ms. CLARKE. Right.
    Mr. TIPTON. So what is the dollar amount that is 
economically disadvantaged?
    Ms. CLARKE. It is already set in statute, sir.
    Mr. TIPTON. What is it?
    Ms. CLARKE. So we are going based on the statute.
    Mr. TIPTON. So we are already protecting the economically 
and socially disadvantaged in statute now? So, thank you. I 
yield back.
    Ms. CLARKE. Yes, it is already in statute.
    Chairman GRAVES. Any other member wish to be heard on the 
amendment?
    As I stated before, I do not like singling out individual 
subgroups. I like the idea that all small businesses get to 
compete for this money. It does not prevent anyone from getting 
an opportunity under this. And so I am opposed to the 
amendment.
    And with that, the question is on the amendment offered by 
Ms. Clarke, Amendment 2.
    Ms. CLARKE. Will the gentleman yield just a moment, Mr. 
Chairman?
    Chairman GRAVES. Yes.
    Ms. CLARKE. I am sorry. I did not mean to disturb you, but 
I just wanted to point out that we are only talking 5 percent 
here. We are not talking the entire--so there is 95 percent for 
just about everybody. You know.
    Chairman GRAVES. Five percent of the total. And the fact of 
the matter is, if we increase that 2 percent, we actually back 
up on every other small business that is out there. We are 
worse off.
    Ms. CLARKE. What do you mean we ``back up''?
    Chairman GRAVES. Well, every other small business is worse 
off in terms of----
    Ms. CLARKE. How are they worse off, Mr. Chairman, if they 
are already in contracts? How are they worse off?
    Chairman GRAVES. Because you take away everything that we 
are trying to do.
    Ms. CLARKE. I am not clear on what you mean but I yield 
back, Mr. Chairman.
    Chairman GRAVES. The question is on the amendment offered 
by Ms. Clarke, Amendment 2 to 4093.
    All those in favor say aye.
    All opposed votes no.
    The opinion of the chair is the noes have it.
    The amendment is not agreed to.
    Ms. CLARKE. Can we get a recorded vote, Mr. Chairman?
    Chairman GRAVES. A recorded vote has been requested.
    Clerk, please call the roll.
    Clerk. Mr. Graves?
    Chairman GRAVES. No.
    CLERK. Mr. Graves votes no.
    Mr. Chabot?
    Mr. CHABOT. No.
    CLERK. Mr. Chabot votes no.
    Mr. King?
    [No response]
    Mr. Coffman?
    Mr. COFFMAN. No.
    CLERK. Mr. Coffman votes no.
    Mr. Luetkemeyer?
    Mr. LUETKEMEYER. No.
    CLERK. Mr. Luetkemeyer votes no.
    Mr. Mulvaney?
    Mr. MULVANEY. No.
    CLERK. Mr. Mulvaney votes no.
    Mr. Tipton?
    Mr. TIPTON. No.
    CLERK. Mr. Tipton votes no.
    Ms. Herrera Beutler?
    Ms. HERRERA BEUTLER. No.
    CLERK. Ms. Herrera Beutler votes no.
    Mr. Hanna?
    Mr. HANNA. No.
    CLERK. Mr. Hanna votes no.
    Mr. Huelskamp?
    [No response]
    Mr. Schweikert?
    Mr. SCHWEIKERT. No.
    CLERK. Mr. Schweikert, no
    Mr. Bentivolio?
    Mr. BENTIVOLIO. No.
    CLERK. Mr. Bentivolio votes no.
    Mr. Collins?
    Mr. COLLINS. No.
    CLERK. Mr. Collins votes no.
    Mr. Rice?
    Mr. RICE. No.
    CLERK. Mr. Rice votes no.
    Ms. Velaazquez?
    Ms. VELAAZQUEZ. Aye.
    CLERK. Ms. Velaazquez votes aye.
    Mr. Schrader?
    Mr. SCHRADER. Aye.
    CLERK. Mr. Schrader votes aye.
    Ms. Clarke?
    Ms. CLARKE. Aye.
    CLERK. Ms. Clarke votes aye.
    Ms. Chu?
    Ms. CHU. Aye.
    CLERK. Ms. Chu votes aye.
    Ms. Hahn?
    Ms. HAHN. Aye.
    CLERK. Ms. Hahn votes aye.
    Mr. Payne?
    Mr. PAYNE. Aye.
    CLERK. Mr. Payne votes aye.
    Ms. Meng?
    Ms. MENG. Aye.
    CLERK. Ms. Meng votes aye.
    Mr. Schneider?
    [No response]
    Mr. Barber?
    Mr. BARBER. Aye.
    CLERK. Mr. Barber votes aye.
    Ms. Kuster?
    Ms. KUSTER. Aye.
    CLERK. Ms. Kuster votes aye.
    Mr. Murphy?
    Mr. MURPHY. Aye.
    CLERK. Mr. Murphy votes aye.
    Chairman GRAVES. Are there any other members that wish to 
vote?
    Seeing none, please report the vote.
    CLERK. The ayes are 10 and the nays are 12.
    Chairman GRAVES. On this vote, the ayes are 10, the nays 
are 12. The amendment is not agreed to.
    Are there any other amendments?
    Seeing none, the question is on agreeing to H.R. 4093.
    All those in favor say aye.
    All opposed votes no.
    The opinion of the chair is the ayes have it. H.R. 4093 is 
agreed to.
    Without objection, a quorum being present, the bill is 
favorably reported to the House. And without objection, the 
Committee staff is authorized to correct punctuation and any 
other necessary technical corrections conforming changes.
    H.R. 4094
    With that we will move on to H.R. 4094, the Contracting 
Data and Bundling Accountability Act of 2014, which I 
introduced with Mr. Hanna, Ms. Chu, Ms. Meng, and Mr. Murphy.
    Contracting bundling is a top complaint that I receive from 
small business contractors all over the country, and 
unjustified bundling and consolidation precludes small 
businesses from competing, along with all the other benefits 
that accrue from their participation.
    In a recent hearing, the Subcommittee on Contracting and 
Workforce and a recent GAO report found that contracts are not 
being properly identified as bundled or consolidated. Without 
this preliminary identification, agencies are not required to 
justify the decision to consolidate or bundle, nor are they 
required to mitigate the effects of their consolidation or 
bundling. And in short, this is as if the laws that were passed 
to limit contracting bundling simply do not apply.
    This bill attempts to address the problem by requiring the 
SBA or the Office of Federal Procurement Policy and other 
agencies to work together on a plan to improve the quality of 
the data, and it further requires that after the plan is in 
place for a year, then GAO will audit the process and look for 
further areas of improvement. This is not simply a bureaucratic 
exercise. Some agencies have gone 17 years without reporting a 
single contract as bundled when it is clear that they are 
bundling. Multi-billion dollar procurements have been awarded 
in the last week that are clearly consolidated but were not 
treated as such, and this is going to provide a measure of 
accountability that has been sorely lacking. And I would urge 
support of the bill.
    And I yield to Ranking Member Velaazquez for her remarks.
    Ms. VELAAZQUEZ. Thank you, Mr. Chairman.
    One of the most daunting challenges facing small firms 
seeking federal work is the issue of contract bundling. Last 
year, $50 billion worth of federal contracts, nearly 10 percent 
of the entire federal marketplace was awarded through bundled 
or consolidated projects. Indeed, as a result of contract 
bundling, small businesses miss out on opportunities worth more 
than $50 billion. I remember when President Bush came into 
office, he issued a report and identified some of the contract 
bundles, and yet nothing happened. Still today, nothing really 
has been happening, and this is why this bill is important.
    It is critical that we have a full grasp of the extent and 
prevalence of this problem. In that regard, H.R. 4094, the 
Contracting Data and Bundling Accountability Act, will 
aggregate data on bundled and consolidated contracts, giving a 
clearer picture of how this problem shapes the procurement 
process. It is also important that officials in charge of 
addressing this practice explain what concrete steps they're 
taking to prevent unfair bundling.
    In this committee, we often hear how the deck is stacked 
against small firms seeking federal work. Bundling is one of 
the most troublesome hurdles, shutting off large segments of 
federal work from entrepreneurs with the skill and experience 
to meet government needs. And it is important for small 
businesses. It is important for taxpayers. We should promote 
competition, and one way to do that is by providing a level 
playing field for small businesses to participate in the 
federal procurement marketplace.
    Thank you, Mr. Chairman.
    Chairman GRAVES. Are there any other members that wish to 
be recognized for a statement on 4094?
    Seeing none, the Committee now moves to consideration of 
H.R. 4094.
    Clerk, please report the title of the bill.
    CLERK. H.R. 4094, To direct the administrator of the Small 
Business Administration to develop and implement a plan to 
improve the quality of data reported on bundled and 
consolidated contracts and for other purposes.
    Chairman GRAVES. Without objection, H.R. 4094 is considered 
read and open for amendment at any point.
    Does anyone have an amendment?
    Ms. CHU. Yes, Mr. Chair. I have an amendment at the desk.
    Chairman GRAVES. What reason you rise? Okay. You did.
    Clerk, please report the amendment.
    CLERK. Amendment 1 to H.R. 4094 offered by Ms. Chu of 
California, page 3----
    Chairman GRAVES. Without objection, the amendment by Ms. 
Chu is considered as read.
    Seeing none, the gentlelady is recognized for five minutes.
    Ms. CHU. Mr. Chair, last year, the Small Business 
Subcommittee on Contracting and Workforce had an insightful 
hearing on the negative impact that unjustified contract 
bundling and consolidation has on small businesses. We learned 
that when federal projects are consolidated or bundled into 
larger contracts, fewer opportunities remain for small 
businesses. The extent to which, however, small businesses are 
negatively impacted is impossible to determine because the 
Federal Government has not met its requirement to self-report 
contract mergers over the past decade.
    Since that hearing last October, my staff has collaborated 
with Chairman Graves's staff on this important issue and the 
development of this legislation which requires the SBA, in 
conjunction with other agencies, to develop and implement a 
plan to improve data reporting and mitigate unjustified 
contract bundling and consolidation in the Federal Government. 
This will bring more accountability to federal contracting and 
increase opportunities for small businesses. And as such, I 
support it.
    My amendment is very simple. It requires the Small Business 
Administration to brief the House and Senate Small Business 
Committees on the plan 90 days before they begin implementing 
it. This will give us an opportunity to give the SBA input on 
the plan before implementation begins.
    I ask for the Committee's support, and I yield back.
    Chairman GRAVES. Do any other members wish to be heard on 
the amendment?
    Seeing none, I support the amendment. I think it gives the 
Committee, our Committee, some more oversight over contract 
bundling. I think any time that happens it is a good thing.
    So with that, the question is on the amendment offered by 
Ms. Chu, Amendment 1 to 4094.
    All those in favor say aye.
    All opposed votes no.
    The opinion of the chair is the ayes have it.
    The ayes do have it.
    The amendment is agreed to.
    Does anyone else have an amendment?
    Seeing none, the question is on agreeing to H.R. 4094 as 
amended.
    All those in favor say aye.
    All opposed votes no.
    The opinion of the chair is the ayes have it.
    H.R. 4094 is agreed to.
    And without objection, and a quorum being present, the bill 
is favorably reported to the House.
    Without objection, the Committee staff is authorized to 
correct punctuation and make other necessary technical 
corrections and conforming changes.
    H.R. 2751
    With that, we will move on to H.R. 2751, the Common Sense 
Construction Contracting Act of 2013, introduced by Mr. Hanna, 
Ms. Meng, and myself. And I now yield to Mr. Hanna.
    Mr. HANNA. Thank you, Chairman. And thank you, Ranking 
Member Meng for your support.
    This bill seeks to repair a problem that has been around 
quite a while. In a normal auction, there are multiple buyers. 
In a reverse auction, there are multiple sellers. So what 
happens is it works well----
    Chairman GRAVES. Can the gentleman yield just so we can get 
clarification?
    Mr. HANNA. Yeah, I am sorry.
    Chairman GRAVES. This is H.R. 2751.
    Mr. HANNA. That is correct, 2751. Thank you.
    Chairman GRAVES. I think I misread it earlier, so I just 
want to make that clarification.
    I yield.
    Mr. HANNA. In a normal auction, there are multiple buyers 
bidding for a single item or project. In a reverse auction, 
there are multiple sellers. But what we have discovered is it 
works very well with nonsubjective items like pencils, pens, 
office supplies, a whole host of things that are commonplace 
and definable. Where it works very badly, and the Army Corps of 
Engineers conducted two studies showing the government does not 
save money when it uses reverse auctions because a lot of the 
things that are purchased are subjective. For example, design 
work, architectural work, construction work where it is much 
more complicated, reverse auctions have actually in many cases 
reversed competition and caused a race to the bottom because 
people literally keep bidding and bidding and bidding. And in 
many cases they wind up with a project that they wish they had 
not received. So what this does is it keeps a reverse 
auctioning alive where it works and it seeks to correct it and 
change it where it has not shown to work in those areas like 
designing architectural work and construction.
    Chairman GRAVES. I now recognize Ranking Member Velaazquez 
for any remarks you might have on 2751.
    Ms. VELAAZQUEZ. I am in total agreement and support the 
gentleman's legislation to H.R. 2751.
    Chairman GRAVES. Do any other members wish to be heard on 
H.R. 2751?
    Ms. MENG. I do.
    Chairman GRAVES. Go ahead.
    Ms. MENG. Concerns across the construction industry from 
subcontractors and prime contractors have been raised about the 
effectiveness of reverse auctions. It has become apparent that 
reverse auctions for construction projects are not a wise use 
of taxpayer dollars. While money can be saved in the short 
term, the quality of projects and the contractors are often 
questionable. The bidders on many of these projects engage in a 
race to the bottom in an attempt to save their failing 
businesses. I look forward to continuing to examining these 
race to the bottom problems in other areas of federal 
procurement.
    I was happy to be an original supporter of this 
legislation, and I want to thank Mr. Hanna and Mr. Graves for 
sponsoring this important legislation which rids taxpayers of 
this wasteful procurement method.
    Thank you, and I yield back.
    Chairman GRAVES. Does any other member wish to be heard?
    Seeing none, the Committee now moves to consideration of 
H.R. 2751.
    Clerk, please report the title of the bill.
    CLERK. H.R. 2751, to amend the Small Business Act to 
prohibit the use of reverse auctions for design and 
construction services procurements.
    Chairman GRAVES. Without objection, H.R. 2751 is considered 
read and open for amendment at any point. Does anyone have an 
amendment to offer?
    Seeing none, the question is on H.R. 2751.
    All those in favor say aye.
    All opposed say no.
    The opinion of the chair is the ayes have it, and H.R. 2751 
is agreed to.
    And without objection, a quorum being present, the bill is 
favorably reported to the House.
    Without further objection, the Committee staff is 
authorized to correct punctuation and make other necessary 
technical corrections and conforming changes.
    With that, our next bill for consideration is H.R. 2882, 
the improving opportunities for Service-Disabled Veteran-Owned 
Small Businesses Act of 2014, which was introduced by Mr. 
Coffman, Ms. Flores, Mr. Miller, Mr. Roe, Mr. Hanna, Mr. 
Connolly, Ms. Herrera Beutler, and myself.
    And I now yield to Mr. Coffman to speak on H.R. 2882.
    H.R. 2882
    Mr. COFFMAN. Thank you, Mr. Chairman.
    I would like to thank the Chairman and Ranking Members for 
bringing H.R. 2882, Improving Opportunities for Service-
Disabled Veteran-Owned Small Business Act up for discussion in 
today's markup. I am proud to have introduced this proposal 
with both Chairman Graves and Chairman Miller of the House 
Veterans Affairs Committee.
    As many of you know, the Small Business Administration and 
the Department of Veterans Affairs operate procurement programs 
for service-disabled veteran-owned small businesses. However, 
in my role as a member of both the House Small Business 
Committee and the House Veterans Committee, I have heard from a 
lot of veterans about problems with the current process, most 
notably regarding inconsistency between the SBA and VA. The SBA 
hears challenges for service-disabled veteran-owned small 
business status decisions for all agencies other than VA. In 
contrast, VA verifies all potential service-disabled veteran-
owned small business companies applying for special procurement 
preferences for VA contracts. The difference is in the 
definition. Processes, and interpretation between the VA and 
SBA cause inconsistent decisions regarding which firms qualify 
for contracts. Under the current system, a service-disabled 
veteran-owned small business can qualify at one agency and not 
another for procurement purposes. This inconsistency often adds 
cost, confusion, and opens the door to fraud. Moreover, the 
current process requires the VA to make decisions that are 
outside their expertise, such as determining business 
structures. In fact, VA told us that over 98 percent of the 
firms they reject are rejected not because the individual is 
not a veteran or service-disabled veteran, but because of the 
business structure. This has caused numerous conflicts because 
the SBA has identified numerous cases they would have decided 
differently than the VA. The process is cumbersome, expensive, 
and does not work for our veterans. Therefore, H.R. 2882 will 
transfer the VA verification process for firms to the SBA, 
unify the definitions of service-disabled veteran-owned small 
business, and veteran-owned small business, and add 
transparency. Additionally, the legislation will increase 
predictability by creating an appellate process by which a 
service-disabled veteran-owned small business can challenge an 
agency decision.
    I want to be clear that the legislation does not change the 
vet's first preference at VA; rather, it works to make sure 
that only qualified firms are able to benefit from the vet's 
first preference by adding transparency and clarity to the 
process.
    I want to again thank the chairman for bringing this issue 
up, and I yield back.
    Chairman GRAVES. Are there any other members that wish to 
be recognized for a statement on 2882?
    Seeing none, the Committee now moves to consideration of 
H.R. 2882.
    Clerk, please report the title of the bill.
    CLERK. H.R. 2882, to amend the Small Business Act and Title 
38 United States Code to provide for a consolidated definition 
of a small business concern owned and controlled by veterans 
and for other purposes.
    Chairman GRAVES. Without objection, H.R. 2882 will be 
considered read and open for amendment at any point. And I do 
have an amendment in the nature of a substitute.
    Clerk, please read the amendment.
    CLERK. Amendment in the nature of a substitute to H.R. 2882 
offered----
    Chairman GRAVES. Without objection, the amendment can be 
considered as read.
    Without objection, the objection in the nature of a 
substitute should be considered as the base text for the 
purpose of amendment.
    I do support 2882 as I outlined before because it does help 
legitimate service-disabled veterans and veterans compete for 
federal contracts, and it is going to allow the government to 
operate more efficiently. The bill reflects a concerted effort 
between this Committee and the Committee on Veterans Affairs to 
craft a balanced solution. The Veterans Affairs Committee has 
agreed to waive their jurisdiction on this bill, and I am 
offering this amendment in the nature of a substitute based 
upon some changes that were negotiated with the ranking member 
and myself. Furthermore, this Committee does not have 
jurisdiction over Title 38 of the United States Code, so 
changes to definitions in Title 38 have been removed from the 
bill in the amendment.
    The Department of Veterans Affairs should focus on deciding 
which individuals or veterans and service-disabled veterans and 
providing them with the benefits that they have earned. The 
SBA, on the other hand, should determine whether firms owned by 
veterans and service-disabled veterans are small for the 
purposes of the federal contracting program. What H.R. 2882 
does is it realigns the functions of each agency so that they 
can each focus on what they do best, rather than perpetuating a 
broken system.
    I personally feel our veterans deserve a little bit better, 
and H.R. 2882 is a good step.
    I now recognize Ranking Member Velaazquez for her remarks 
on the amendment in the nature of a substitute to 2882.
    Ms. VELAAZQUEZ. Thank you, Mr. Chairman.
    Time and again, this committee has seen how skills learned 
in the military are vital to a career in entrepreneurship, 
whether it is familiarity with the government procurement 
process, leadership abilities, tireless discipline, or a 
willingness to take risks, we have seen countless examples of 
veterans entering civilian life to become small business owners 
and create jobs in their community.
    Today, there are 22 million veterans who sacrificed for our 
nation, 5.5 million of whom were disabled from service-
connected injuries. These brave individuals deserve our ongoing 
gratitude and our profound respect. Efforts to channel 
contracts to service-disabled veteran-owned small businesses is 
one way that we can show our commitment to them. Regrettably, 
lax verification of firms receiving these very contracts is 
undermining these efforts. GAO has done significant work 
finding that ineligible firms have won contracts that should 
instead have gone to service-disabled veterans. This abuse 
includes front companies posing as veterans, pass-throughs 
where the bulk of the work and revenue went to nonveteran 
entities, and in some cases, outright fraud. As a result, 
veterans lost out on millions of dollars in government 
projects.
    The bill before us today, H.R. 2882, takes steps to improve 
this process. It moves the vets first verification initiative 
from the VA to the SBA. Ideally, doing so should take advantage 
of SBA's experience in certifying firms in other contracting 
programs. The result should be fewer noneligible entities 
receiving contracts intended for America's veterans.
    Unfortunately, H.R. 2882 uses an odd funding mechanism to 
reimburse the SBA. Instead of just authorizing funds as it is 
customary through Congress and the government, it relies on a 
complicated system of intergovernmental transfers. A similar 
system was put in place to fund small disadvantaged business 
certifications but it did not work, resulting in an end to the 
program. Putting in place a discredited idea to support our 
nation's veterans makes no sense. In fact, it is a slap in the 
face to America's war fighters, treating them like second class 
citizens, relying on external intergovernmental transfers as 
the underlying bill does puts the entire program at risk. If 
there is not enough funding or if there is a disagreement 
between the VA and SBA, the program could shut down. That means 
no service-disabled veteran-owned small businesses will be 
certified. It means that existing firms will not be examined. 
This is precisely when fraud and abuse takes hold, when no one 
is watching. Why are we taking this risk, especially when it 
comes to protecting veteran-owned contractors?
    While I support the bill, I will be offering an amendment 
to improve upon this flawed funding structure and ensure that 
veterans receive the full support they need. For this reason, 
my amendment is supported by the American Legion. Regardless, 
we must make every effort to ensure that imposters cannot 
defraud the government and deprive legitimate service-disabled 
veteran entrepreneurs their fair share of federal contracts. 
Addressing this failing is long overdue.
    I look forward to working with the chairman and my 
colleagues on this shared goal, and I yield back the balance of 
my time.
    Chairman GRAVES. Does anyone have an amendment to the 
amendment in the nature of a substitute?
    Mr. SCHRADER. Mr. Chairman, a point of inquiry, please?
    Chairman GRAVES. Mr. Schrader?
    Mr. SCHRADER. Just on the substitute, just so I understand 
what the substitute does, I notice that it eliminates the 
original section 2 of the bill and wondered why that was, 
whether that defined the bill, what a qualifying veteran-
disabled enterprise was, and just wanted to understand why that 
was eliminated.
    Chairman GRAVES. Counsel, do you want to explain what 
exactly?
    Mr. PINELES. The reason that the amendment in the nature of 
a substitute removed the section was because of the issues 
between the definitions at the Department of Veterans Affairs 
and the SBA, and we were trying to draw a bright line to ensure 
that the SBA would be simply ruling on what constitutes a small 
business.
    Mr. SCHRADER. Okay. I understand. I just hope that that is 
a good definition that they have because that has been a 
problem that we have observed in our Committee and want to make 
sure that a legitimate small business veteran-owned are the 
ones we are funding here.
    Second question if I may, Mr. Chairman. Just, again, for my 
edification, talk a little bit about the funding mechanisms. 
There is a six-year timeline that is in there and what is the 
rationale behind the six years?
    Chairman GRAVES. It is a six-year timeline. It does allow 
for continued funding beyond that point but it is a six-year. 
And what we are doing is moving the funds out of--it is a 
Veterans Affairs slush fund is what it is, and that is what we 
are trying to do under the bill and that allows us to at least 
have input on directing how that money is going to be spent. 
The SBA is going to be making the determination. Right now 
there is no oversight over that slush fund money. It is not 
appropriated. It is their money to do as they please.
    Mr. SCHRADER. Okay.
    Chairman GRAVES. At least from the Veterans Administration. 
We would rather the SBA be making the determination on whether 
or not those businesses qualify or not.
    Mr. SCHRADER. I certainly agree with the base bill in Mr. 
Coffman and your endeavor here. It also says ``any cost.'' So 
is this like whatever this program costs under the SBA, they 
will reimburse us, and there is enough in the fees that they 
collect to make sure that the small business administrator is 
completely reimbursed for the cost of the program?
    Chairman GRAVES. We think so. The problem with it is though 
if we appropriate money, then we are going to have to find an 
offset and that will kill the bill right up. And everything 
will stay just exactly the way it is and the VA will continue 
to use their slush fund.
    Mr. SCHRADER. One last question, Mr. Chairman, because I am 
trying to understand, and maybe it has to do with that offset. 
It seems like if we are saying $15 million, that we do not need 
an offset; right? I mean, it is money that has already been 
appropriated. SBA is going to do a better job.
    Chairman GRAVES. If it has to be appropriated, we have to 
find an offset. That is the way the rules are right now. And 
like it or not, it will kill the bill, so, which, you know, if 
that is what your intent is, then that is your prerogative.
    Mr. SCHRADER. I appreciate it. Thank you, Mr. Chairman.
    Chairman GRAVES. Does anyone have an amendment to the 
amendment in the form of a substitute?
    Ms. Kuster?
    Ms. KUSTER. Mr. Chairman, I have an amendment at the desk 
and offer that amendment at this time.
    Chairman GRAVES. Clerk, please report the amendment.
    CLERK. Amendment 1 to the amendment in the nature of a 
substitute to H.R. 2882 offered by Ms. Kuster of New Hampshire. 
Page 4, line 1----
    Chairman GRAVES. Without objection, the amendment is 
considered as read.
    The gentlelady, five minutes.
    Ms. KUSTER. Thank you, Mr. Chairman.
    In addition to this panel, I am very fortunate to also be a 
member of the Veterans Affairs Committee, and there is no 
greater honor for me than serving the brave men and women who 
have served our country. While I am not a veteran, both my 
father and my husband's father served in World War II. In fact, 
my father-in-law was landing on the beaches of Normandy while 
my father flew cover overhead. My father flew a P-47 fighter 
plane and was shot down over the battle of the bulge on 
Christmas Eve of 1944. He spent the last six months of the war 
in a German prisoner-of-war camp, and when he returned home 
safely, he helped to start a new business, Wildcat Mountain Ski 
area in Pinkham Notch, New Hampshire. It is my goal with this 
amendment to help ensure that all veterans have the resources 
and support they deserve if they decide to follow in my 
father's footsteps and start their own businesses.
    As amended, the underlying bill requires the Veterans 
Affairs secretary and the Small Business Administration 
administrator to meet twice a year to discuss how to increase 
opportunities for veteran-owned businesses. My amendment would 
expand this provision to also require the secretary and 
administrator to consult with veterans service organizations on 
how to achieve that goal. Republican and democrat alike, we can 
all agree that the best ideas do not come from Washington, 
D.C.; they come from individuals and communities in New 
Hampshire, Colorado, Missouri, New York, and across our 
country. My amendment would help ensure that the voices of 
veterans are heard as our government discusses how best to 
support veteran-owned small businesses and service-disabled 
veteran-owned small businesses.
    The American Legion and AMVETS have expressed support for 
this simple one-page amendment. I commend Congressman Coffman, 
Congressman Hanna, the chairman, and the ranking member for 
advancing the underlying bill, and I urge the adoption of my 
amendment.
    Thank you, Mr. Chairman. I yield back.
    Chairman GRAVES. Does any other member wish to be heard on 
the amendment to the amendment in the form of a substitute?
    Seeing none, I support the amendment. I think it makes 
sense.
    So the question is on the amendment offered by Ms. Kuster.
    All those in favor say aye.
    All those opposed votes no.
    Seeing none, the opinion of the chair is the ayes have it 
and the amendment is agreed to.
    With that, Ms. Hahn, do you have an amendment?
    Ms. HAHN. Thank you, Mr. Chairman.
    I have an amendment at the desk and offer that amendment at 
this time.
    Chairman GRAVES. Please report the amendment.
    CLERK. Amendment 2 to the amendment in the nature of a 
substitute H.R. 2882 offered by Ms. Hahn of California. Page 4, 
line 14----
    Chairman GRAVES. Without objection, Amendment 2 is 
considered as read.
    Gentlelady, you have five minutes.
    Ms. HAHN. Thank you. Thank you, Mr. Chairman.
    First off, I would also like to thank Mr. Coffman for 
sponsoring this legislation. As another war comes to an end and 
we welcome our brave men and women back home, we must ensure 
that we afford them every resource at our disposal to ensure 
that they can live life the way they want to when they return 
from serving our country. For many veterans, this may mean 
starting and running their own small businesses, supporting 
themselves with their innovative and hard-working spirit and 
contributing to their local economies.
    In the legislation as amended, I was happy to see in the 
Memorandum of Understanding that the secretary of Veterans 
Affairs and the Small Business administrator will begin a 
discussion on ways to improve collaboration between the two 
agencies in order to increase opportunities for veteran- and 
service-disabled veteran small business owners. This 
partnership is promising, and should this legislation pass, I 
am looking forward to this discussion being the foundation for 
new progress to better serve the men and women who have served 
us all so well.
    But if we are going to have this discussion, I think it is 
important that we include two groups of veterans who have had 
less access and less opportunities as small business owners--
female veterans and minority veterans. Today, women and 
minorities are serving their country more than ever before, and 
in the coming decades we are going to see them make up a 
greater and greater percentage of our veterans. Yet, women make 
up just 4 percent of veteran small business owners despite 
making up almost 8 percent of the veteran population, and 
minorities make up more than 20 percent of the veteran 
population but just 14 percent of veteran small business 
owners. They make up just 7 percent of veteran owners of small 
business with employees.
    There is clearly significant room for improvement, and the 
resources we have available in both the VA and the Small 
Business Administration can go a long way in closing these 
gaps. My amendment is simple. It ensures that in the secretary 
and administrator's upcoming discussion, they are sure to 
include ways to increase opportunities for women and minority 
veteran small business owners. I hope that the Committee will 
ensure that the SBA and the VA will report back to us on their 
progress regarding these issues.
    I am happy to support this legislation, and I hope we can 
work together to develop a productive collaboration with the VA 
so that we can best serve all the groups of the veterans.
    Thank you. I yield back.
    Chairman GRAVES. Does any other member wish to be heard on 
the amendment to the amendment?
    Mr. Coffman?
    Mr. COFFMAN. Thank you, Mr. Chairman.
    Having served 21 years in the military and as a combat 
veteran, I can tell you that for our disabled veterans, the 
enemy does not discriminate on who they fire upon. And for us 
to break them up into categories based on race and gender is 
the wrong direction for this country. Our military has made 
tremendous progress on the issues of race and gender, although 
certainly concerned about the sexual assault issue now before 
the Congress. But it absolutely makes no sense to identify them 
beyond that of being veterans or disabled veterans. So I 
certainly strongly oppose the amendment.
    Chairman GRAVES. Do any other members wish to be heard on 
the amendment?
    Mr. Luetkemeyer?
    Mr. LUETKEMEYER. Yes, Mr. Chairman.
    Maybe I am out of order here with regards to point of 
order, but can you explain how we can have two amendments 
amending the same section at the same point? We have already 
got a substitute. That would be the third agreement if I am not 
mistaken. Besides that, we are amending the same place 
according to the language of this amendment. I do not have a 
problem with the amendment, just the procedure here because 
both of them state on page 4, line 14, insert after this 
section.
    Chairman GRAVES. The first one amended line 4. The second 
one amends line 14, does it not?
    Counsel, is it drafted correctly?
    Mr. PINELES. Yes. Ms. Hahn's amendment amends page 4, line 
14, not line 4.
    Mr. LUETKEMEYER. Okay.
    Ms. VELAAZQUEZ. He has the old version of the amendment.
    Mr. LUETKEMEYER. Okay. My mistake.
    Chairman GRAVES. Does anyone else wish to be heard on the 
amendment?
    Yes, Ms. Herrera Beutler?
    Ms. HERRERA BEUTLER. I just have a quick question, Mr. 
Chairman, for the sponsor.
    Chairman GRAVES. Sure.
    Ms. HERRERA BEUTLER. This is not setting a specific number 
goal or it just--am I reading this correctly? In the meeting 
they are to discuss ways to improve collaboration under the 
memorandum, to increase opportunities? So we are not setting a 
floor or a ceiling?
    Ms. HAHN. No, we are not. And we are certainly not really 
breaking them into any categories that are unreasonable. I am 
just saying in their conversation, just let us make sure that 
when we discuss about outreach and opportunities we definitely 
are finding ways to help women veterans as well.
    Ms. HERRERA BEUTLER. Okay, thank you.
    With that, I yield back.
    Chairman GRAVES. Does anyone else wish to be heard on the 
amendment?
    I do support the amendment.
    Ms. HAHN. Hallelujah.
    Chairman GRAVES. I think that anytime we can improve that 
collaboration I think it is important.
    So with that----
    Ms. HAHN. Hallelujah.
    Chairman GRAVES. Mr. Coffman?
    Ms. HAHN. Thank you, Sam.
    Chairman GRAVES. The question is on the amendment offered 
by Ms. Hahn to the amendment in the nature of a substitute.
    All those in favor say aye.
    All opposed say no.
    The opinion of the chair is the ayes have it.
    The amendment is agreed to.
    With that, Ms. Velaazquez--and we possibly have a vote in 
five minutes.
    Ms. VELAAZQUEZ. Okay.
    Chairman GRAVES. Which does not make any difference. We 
will come back.
    Ms. VELAAZQUEZ. Sure.
    Mr. Chairman, I have an amendment at the desk.
    Chairman GRAVES. Clerk, please report the amendment.
    CLERK. Amendment 3 to the amendment in the nature of a 
substitute to H.R. 2882 offered by Ms. Velaazquez of New York.
    Chairman GRAVES. Without objection, the amendment will be 
considered read.
    Ms. VELAAZQUEZ. Thank you, Mr. Chairman.
    Ensuring that our nation's veterans are able to build a 
career after their military service is a priority. After all, 
with 2.6 million veterans from the wars in Afghanistan and Iraq 
alone, these men and women have the skill and leadership 
qualities necessary to help our economy continue to grow. The 
bill before us takes a step in the right direction. It will 
help ensure that only service-disabled veteran-owned small 
businesses qualify for contracts intended for them at the VA. 
However, the legislation relies on an unstable funding 
structure to support this important verification program. As 
worded in the bill, these intergovernmental transfers are no 
more than vague promises that the VA will reimburse the SBA for 
its costs.
    What happens if the VA does not collect enough fees from 
its contractors as the underlying bill requires? What happens 
if the SBA cost of operating this entity is greater than the 
amount of fees that the VA collects or wants to transfer to the 
SBA? These are important questions, and while OMB is directed 
to get involved, the true answers, ``we do not know,'' and ``we 
hope everything works out.'' This uncertainty only serves to 
create openings for nonveterans to defraud the government and 
take contracts away from actual service-disabled veterans.
    This is just not good for our veterans. Simply put, they 
deserve more than these loose promises. They have fought for 
our nation's freedom, defended our democracy, and helped those 
in need throughout the world. We owe it to them to make sure 
that they have a dedicated funding stream that guarantees 
contracts intended for them actually go to them. My amendment, 
which is supported by the American Legion, and Mr. Chairman, at 
a given time I would like to ask unanimous consent for this 
letter from the American Legion in support of my amendment, to 
be entered into the record.
    Chairman GRAVES. Without objection.
    Ms. VELAAZQUEZ. My amendment, which is supported by the 
American Legion, provides such assurances, and by doing so, 
ensures that funds are authorized for the program each year. In 
their letter, the American Legion states that they believe this 
program needs to be properly and permanently funded. As the 
representative of 2.4 million veterans in 14,000 posts, those 
are strong words from the American legion.
    With this in mind, I ask unanimous consent, that the letter 
is entered into the record. This is necessary because as we all 
know, the eligibility verification process requires resources. 
Certification relies on application screening, examinations, 
regular oversight, and site visits. To put it more 
straightforward, if we are going to channel contracts to 
veterans, we have to make sure that it is really veterans that 
are actually getting them. It is also important to realize that 
we have been down this path before and have seen the problems 
that intergovernmental transfers cost when relied upon for 
program funding. The Small Disadvantaged Business program 
relied on such a scheme 10 years ago, but due to problems with 
this structure, the program was unable to sustain itself. If 
the funding structure in the bill is maintained, it would not 
be a surprise to see the Vets First program cease operation in 
a few years altogether. What my amendment does is no different 
than what is already provided for the HUBZone and the 8(a) 
minority-owned firms. We talk about the importance of a level 
playing field, but what the underlying bill does is penalize 
veterans by giving them an unreliable program.
    Because of these reasons I urge you to vote yes on my 
amendment and fully fund this important initiative for our 
country's veterans. We owe this to our veterans and it is time 
that we do right on their behalf.
    Thank you, Mr. Chairman. I yield back.
    Mr. BARBER. Mr. Chairman?
    Chairman GRAVES. Who called?
    Mr. BARBER. Mr. Chairman, I move to strike the last word.
    Chairman GRAVES. Go ahead.
    Mr. BARBER. As the son of a veteran of World War II, of 
Korea, and Vietnam, and as a member who represents over 85,000 
veterans, I am going to rise in support to this amendment.
    The funding structure of the bill in its current form is 
too unstable as it hinges on two agencies which we have asked 
to work together in the past with little success. They have to 
come to an agreement on paying for this program, and what they 
have done in the past does not hold great promise for the 
future. We need to ensure that veteran-owned businesses do not 
become a bargaining chip if the VA and the SBA cannot reach an 
agreement. And the only way to do this is to provide a 
straightforward appropriation for the program.
    Rather than hoping that these agencies will somehow 
magically reach an agreement, we need to ensure from the outset 
that this vital program has the right funding. Small businesses 
invest time and money to enter into the federal marketplace, so 
we need to provide them with a certainty that the program will 
be operational so that they can and will make an investment. 
This Committee has appropriated the other contracting programs, 
such as HUBZone and 8(a) programs, and we should not treat our 
veterans who have served our country valiantly--we should not 
treat them any differently.
    The bill in its current form fails to address what would 
occur in the likelihood that the agencies failed to reach an 
agreement for the initial funding or in the event of an 
extension of the program. The vast majority of veterans' 
businesses who are denied certification through the current 
system have been denied because of their business structure, 
not their status as veterans or service-disabled veterans. 
Providing straightforward funding for this bill allows OHA, the 
expert in determining whether or not a business is small, the 
ability to hear appeals immediately.
    I urge unanimous consent for Congresswoman Velaazquez's 
amendment, and I yield back.
    Mr. COFFMAN. Mr. Chairman?
    Chairman GRAVES. Mr. Coffman?
    Mr. COFFMAN. I move to strike the last word.
    Chairman GRAVES. Go ahead.
    Mr. COFFMAN. Mr. Chairman, the bill as currently written 
respects not only the veterans of this country, I being one of 
them, but also respects the taxpayers of this country in that 
it merely continues an existing funding source that this 
particular function has already been operating under.
    Chairman GRAVES. Anyone else?
    Mr. Schrader?
    Mr. SCHRADER. Thank you, Mr. Chairman.
    Big supporter of our veterans' community. Big supporter of 
the underlying intent of this bill. I think it will go a long 
way hopefully to improving what our veterans deserve as far as 
small business opportunities.
    And to the end, I mean, for the sake of efficiency, it just 
seems odd to me that we have to go through kind of a byzantine, 
arcane funding mechanism which slightly tarnishes the great 
work that the Committee has done, the chairman and ranking 
member. I mean, I do not understand why we need an offset for 
something that saves you half the cost of the program. That 
goes against common sense at the end of the day. There is no 
constitutional, statutory, administrative rule that requires us 
to do that, and it seems for the sake of the veterans 
community, as has been state here by members of the Committee, 
we want to make sure the money gets to the veterans so that 
this program is done right, so there is no fraud in the 
program, that these men and women that have served our country, 
like Mr. Coffman, who I really appreciate, can actually get the 
opportunities that they richly deserve. The offset thing has 
been violated, if you will, in a number of other areas. Members 
of this Committee, both republican and democrat, have voted for 
the Skills Act, the Hazard Preparedness Reauthorization Act of 
2013, the VA Major Medical Facility Bill, the Poison Control 
Center. All those things are the same. I mean, I would like 
just to have a clean deal here where, hey, we are cutting the 
program cost in half. That is a huge win for the taxpayer. I 
think to your point, to Mr. Coffman's point, let us just 
appropriate the $15 million and make sure the money gets there 
and call it good.
    Ms. VELAAZQUEZ. Would the chairman----
    Mr. SCHRADER. I yield back actually.
    Ms. VELAAZQUEZ. Mr. Chairman, I would just like to add, 
look, I have a list of the members, Republican members on this 
committee, right here, you have voted on legislation that 
contained no offset authorizations for new programs. This 
amendment does not violate the Cut Gov't in containing House 
Rule 21 plus 10. And it applies only to mandatory spending. 
Discretionary spending is not mandatory.
    Ms. HERRERA BEUTLER. Mr.----
    Chairman GRAVES. Go ahead.
    Ms. HERRERA BEUTLER. I do not know who I am asking. I am 
asking Mr. Chairman for just a moment.
    Chairman GRAVES. Sure.
    Ms. HERRERA BEUTLER. So does this bill--I realize what I 
heard cited a couple times was last year's bill is when we were 
not operating under an agreed-to bipartisan, bicameral budget. 
Are the bipartisan, bicameral budget that we enacted for 
appropriations levels for this year, would this amendment 
violate that enacted budget? Last year we did not--I mean, the 
House passed a budget but there was nothing agreed to that we 
were operating under. Would this violate that budget?
    Let me ask that question to the sponsor.
    Ms. VELAAZQUEZ. This is an authorizing committee. This is 
not an Appropriations Committee. What we are doing is 
authorizing a program. And in fact, we asked the 
parliamentarian yesterday and he said you are correct. With 
regards to the leadership protocols, you are correct that they 
are not enforceable with a point of order. Additionally, budget 
act points of order are not enforceable in committee.
    Ms. HERRERA BEUTLER. No, I am not trying to get all 
parliamentarian on you. I just want to know, are we violating 
the spirit of the budget that we passed? That is all I want to 
know.
    Ms. VELAAZQUEZ. And I know that we do not. This amendment 
does not.
    Chairman GRAVES. Here is the reality, and I think everybody 
in the room obviously supports veterans and want to make sure 
that as, to Mr. Barber's point, anyone that has been denied, it 
has been based on business models or business practices. That 
is the reason we are trying to bring the SBA into this. That is 
the purpose of this. And we want to use a slush fund. We think 
they can do it for $10 million. There is $2 billion in this. It 
is unappropriated dollars. We cannot touch it, and the fact of 
the matter is, the reality is we have to have an offset. If we 
take this to the floor with a $15 million authorization, we 
have to have an offset or it is not coming to the floor.
    Ms. VELAAZQUEZ. Mr. Chairman, what would happen if VA does 
not collect the fees?
    Chairman GRAVES. Well, the fact of the matter is no money 
transfers until there is an agreement, until they come to a 
conclusion. So if there is none, then nothing changes. Nothing 
has changed. But what we are trying to do, at least at this 
point, is attempt to fix this for those veteran-owned 
businesses and allow them to be able to move forward. So the 
bottom line is if there is no agreement, then no money 
transfers and it stays exactly the way it is. If it works, and 
I think it will work, and the fact of the matter is the last 
time it did not work is because Congress did not reauthorize 
it. That is the reason it did not work.
    Ms. VELAAZQUEZ. It did not because we did not have the 
oversight mechanism in place. It did not work because we did 
not provide a funding stream like we do for other programs. 
They deserve better. Veterans in this country deserve better.
    Chairman GRAVES. I agree. And that is the reason we are 
trying to fix it. OMB will have oversight over this, and the 
fact is if we have to go with an offset there will not be a 
bill. So nothing will change. So at least we are trying to fix 
it.
    So with that, does anyone else wish to be heard on the 
amendment to the amendment in the form of a substitute?
    Seeing none, the question is on the amendment offered by 
Ms. Velaazquez to the amendment in the form of a substitute.
    All those in favor say aye.
    All opposed votes no.
    The opinion of the chair is the noes have it.
    Ms. VELAAZQUEZ. Mr. Chairman, I ask for a recorded vote.
    Chairman GRAVES. A recorded vote has been requested.
    Can we recess in the middle of that process, counsel? 
Because I do not think we have time. That is going to delay us.
    So everybody needs to--that is going to make everybody come 
back.
    So with that we will go ahead and recess. We will get the 
vote out of the way and then we will come back and we will 
finish with the recorded vote which we are in the process of 
having. So we are in recess.
    [Recess]
    Chairman GRAVES. I will go ahead and call the markup back 
to order.
    We have had a recorded vote called. Clerk, please read the 
roll.
    CLERK. Mr. Graves?
    Chairman GRAVES. No.
    CLERK. Mr. Graves votes no.
    Mr. Chabot?
    Mr. CHABOT. No.
    CLERK. Mr. Chabot votes no.
    Mr. King?
    [No response]
    Mr. Coffman?
    Mr. COFFMAN. No.
    CLERK. Mr. Coffman votes no.
    Mr. Luetkemeyer?
    Mr. LUETKEMEYER. No.
    CLERK. Mr. Luetkemeyer votes no.
    Mr. Mulvaney?
    Mr. MULVANEY. No.
    CLERK. Mr. Mulvaney votes no.
    Mr. Tipton?
    Mr. TIPTON. No.
    CLERK. Mr. Tipton votes no.
    Ms. Herrera Beutler?
    Ms. HERRERA BEUTLER. No.
    CLERK. Ms. Herrera Beutler votes no.
    Mr. Hanna?
    Mr. HANNA. No.
    CLERK. Mr. Hanna votes no.
    Mr. Huelskamp?
    Mr. HUELSKAMP. No.
    CLERK. Mr. Huelskamp votes no.
    Mr. Schweikert?
    Mr. SCHWEIKERT. No.
    CLERK. Mr. Schweikert votes no.
    Mr. Bentivolio?
    Mr. BENTIVOLIO. No.
    CLERK. Mr. Bentivolio votes no.
    Mr. Collins?
    Mr. COLLINS. No.
    CLERK. Mr. Collins votes no.
    Mr. Rice?
    Mr. RICE. No.
    CLERK. Mr. Rice votes no.
    Ms. Velaazquez?
    Ms. VELAAZQUEZ. Aye.
    CLERK. Ms. Velaazquez votes aye.
    Mr. Schrader?
    Mr. SCHRADER. Aye.
    CLERK. Mr. Schrader votes aye.
    Ms. Clarke?
    Ms. CLARKE. Aye.
    CLERK. Ms. Clarke votes aye.
    Ms. Chu?
    Ms. CHU. Aye.
    CLERK. Ms. Chu votes aye.
    Ms. Hahn?
    Ms. HAHN. Aye.
    CLERK. Ms. Hahn votes aye.
    Mr. Payne?
    [No response]
    Ms. Meng?
    Ms. MENG. Aye.
    CLERK. Ms. Meng votes aye.
    Mr. Schneider?
    [No response]
    Mr. Barber?
    Mr. BARBER. Aye.
    CLERK. Mr. Barber votes aye.
    Ms. Kuster?
    Ms. KUSTER. Aye.
    CLERK. Ms. Kuster votes aye.
    Mr. Murphy?
    Mr. MURPHY. Aye.
    CLERK. Mr. Murphy votes aye.
    Mr. Payne?
    Mr. PAYNE. Aye.
    CLERK. Mr. Payne votes aye.
    Chairman GRAVES. Are there any other members that wish to 
vote?
    Seeing none, please report the vote.
    CLERK. The ayes are 10, the nays are 13.
    Chairman GRAVES. On this vote the ayes are 10 and the noes 
are 13. The amendment is not agreed to.
    Are there any other amendments?
    Seeing none, the question is on agreeing to the amendment 
in the nature of a substitute to H.R. 2882 as amended.
    All those in favor say aye.
    All opposed votes no.
    The opinion of the chair is the ayes have it.
    The ayes do have it.
    The amendment in the nature of a substitute is agreed to.
    And without objection, a quorum being present, H.R. 2882 as 
amended is favorably reported to the House.
    And without objection, the Committee staff is authorized to 
correct punctuation and to make other necessary technical 
corrections and conforming changes.
    H.R. 776
    Chairman GRAVES. Our next bill for consideration is H.R. 
776, the Security and Bonding Act of 2013 introduced by Mr. 
Hanna, Ms. Meng, and myself. And I yield to Mr. Hanna to speak 
on H.R. 776.
    Mr. HANNA. Thank you, Chairman Graves.
    I would like to thank Ranking Member Meng for her support, 
Congressman Luetkemeyer, and Congressman Collins.
    This bill has to do with the Miller Act, which requires 
prime contractors to provide the government with a surety bond 
when bidding construction projects. The overall purpose of a 
surety bond is to protect the taxpayer, contractors, whoever 
the agency may be in charge, ultimately, the owner.
    What has happened in the past is that the assets behind 
some of these surety bonds which ultimately back up the bond 
itself have been specious assets and have not been claimable in 
any format that we would recognize. This tightens that up and 
requires certain assets that are liquid and discernable and 
attachable.
    I am happy to answer any questions about it but these bonds 
have been a net increase to the treasury. There is a surplus in 
there now and it is a very simple fix to a problem that could 
be turned into a very large problem. It also expands the 
program to allow for more small businesess to use these bonds.
    Chairman GRAVES. Do any other members wish to be recognized 
for a statement on H.R. 776?
    The Committee now moves to consideration of H.R. 776.
    Clerk, please report the title of the bill.
    CLERK. H.R. 776, to amend Title 31, United States Code to 
revise requirements related to assets pledged by a surety and 
for other purposes.
    Chairman GRAVES. Without objection, H.R. 776 is considered 
read and open for amendment at any point. I have an amendment 
in the nature of a substitute.
    Clerk, please read the amendment.
    CLERK. Amendment in the nature of a substitute to H.R. 776 
offered by Mr. Graves of Missouri. Strike all the----
    Chairman GRAVES. Without objection, the amendment is 
considered read.
    Without objection, the amendment in the nature of a 
substitute shall be considered as the base text for the purpose 
of amendment.
    Surety bonds protect taxpayers and contractors alike, and 
they ensure that the government is not left with unfinished 
buildings and to make sure that subcontractors are paid in the 
process. H.R. 776 as introduced strengthens those protections. 
However, much of 776 falls within the jurisdiction of the 
Judiciary Committee, which has not waived jurisdiction on this 
bill. Therefore, my amendment and the nature of the substitute 
ensures that we will not consider anything or any language that 
is out of our jurisdiction, only the language that is within 
our jurisdiction. I believe the bill as a whole and in part 
deserves our support. The portions of H.R. 776 and this 
Committee's jurisdiction is going to allow more small 
construction companies to compete for federal contracts, and in 
turn, bring down the prices, I think, at least on federal 
construction projects. Based on data provided by the SBA, I am 
convinced that we can accomplish this without putting taxpayers 
at risk. And therefore, I would urge support of the bill.
    I now recognize Ms. Velaazquez for her remarks.
    Ms. VELAAZQUEZ. Yes, thank you, Mr. Chairman.
    We often discuss the SBA's role in helping small firms 
access capital by guaranteeing private loans. Less attention 
has been paid to the SBA surety bond initiative, which performs 
a parallel function in the area of bonding contractors. Current 
law requires that any contractor doing construction or repair 
work in excess of $150,000 must have a performance bonus, 
essentially guaranteeing work will be completed in accordance 
with the contract's terms.
    In Fiscal Year 2013, the SBA's Surety Bond program 
guaranteed 6,151 bonds on final bids. Absent this backstop, it 
is likely that many small firms will struggle to find private 
market companies willing to guarantee their work. Recent 
analyses have suggested that women-owned and minority-owned 
firms face greater challenges in finding private market surety 
companies to bond them. As a result, this initiative is 
particularly useful for many companies Congress has targeted 
for greater involvement in the federal marketplace.
    With this in mind, as we seek ways to foster small business 
participation in the federal marketplace, the SBA Surety Bond 
program will likely need to be part of that equation. With 
projects growing in complexity, scope, and scale, it only makes 
sense that bonds provided will seek larger guarantees for their 
exposure.
    This committee and the House have previously recognized the 
economic value in the SBA Surety Bond program. As part of the 
American Recovery and Reinvestment Act, we increase the program 
site limit to encourage smaller firms to take on larger 
projects. It is my hope the committee continues working 
together to find ways to maximize the value of this initiative.
    I thank the chairman for this legislation. And I yield back 
and I support it.
    Chairman GRAVES. Does any other member have an amendment to 
offer?
    Seeing none, the question is on agreeing to the amendment 
in the nature of a substitute to H.R. 776.
    All those in favor say aye.
    All opposed votes no.
    The opinion of the chair is the ayes have it.
    The ayes do have it.
    The amendment in the nature of a substitute to H.R. 776 is 
agreed to.
    Without objection, the Committee staff is authorized to 
correct punctuation and make other necessary technical 
corrections and conforming changes.
    H.R. 4121
    Our next bill for consideration is H.R. 4121, the Small 
Business Development Centers Improvement Act of 2014, which is 
introduced by Ranking Member Velaazquez.
    I now yield to Nydia to speak on 4121.
    Ms. VELAAZQUEZ. Thank you, Mr. Chairman.
    In every state, the SBA's network of 900 Small Business 
Development Centers help would-be entrepreneurs build and 
launch new enterprises. They also assist existing business 
owners who are seeking to expand and grow their operations. 
Whether it is how to construct a business plan, market 
research, manufacturing assistance, or guidance for firms 
seeking to begin exporting their goods abroad, SBDCs are 
absolutely vital to small companies' success.
    H.R. 4121, the Small Business Development Centers 
Improvement Act gives SBDCs the tools and resources they need 
to continue providing these invaluable services to our nation's 
entrepreneurs. During this period of fiscal restraint, it is 
important that we continue to look to proven programs like the 
SBDCs. Doing so allows us to more efficiently allocate further 
resources to those programs that have proven benefits.
    SBDCs have a strong track record of success. In fact, 
previous analyses have found that for every dollar invested in 
them, $2.87 is returned to the treasury. It is rare to see such 
a strong return on investment in any governmental program. That 
document of financial return does not even include the very 
extensive job creation and local economic development benefits 
SBDCs bring to their communities.
    At the same time that the SBDC program has demonstrated 
such success, SBA has recently experimented with a series of 
unproven programs that have neither been approved by the 
committee, by Congress, nor adhere to the same performance 
metrics as SBDC or other existing SBA entrepreneurial 
development initiatives. Given that SBA and the rest of the 
federal government is operating under significant budgetary 
pressure, we must ensure the agency's resources are used 
wisely.
    It is with this in mind that I am putting forward H.R. 
4121. It will ensure that any new entrepreneurial development 
services will be offered through the agency's 16 networks. With 
budgets tight and sequestration still in effect, we simply 
cannot afford ``pie in the sky'' experimentation and 
duplication in the SBA programs. The SBA's 16 entrepreneurial 
development works, including not just SBDC but also Women's 
Business Centers and SCORE as well, are positioned to channel 
any new assistance to business owners. Using these existing 
networks, rather than creating new, duplicative ones, will 
ensure that the entrepreneurs receive the resources they need 
without wasting taxpayer dollars on an unproven scheme. We must 
also work to ensure that the SBDCs are freed up to do what they 
do best--assist small business owners. In that regard, the 
legislation makes a number of important changes that will 
streamline their operations and reduce their administrative 
burden. By granting SBDCs authority to better market their 
services, the bill will expand outreach to small firms that may 
not be aware these services exist. In addition, the legislation 
ensures that SBDC grants are targeted to the not-for-profit and 
higher education institutions that have proven to be such 
viable partners in the SBDC program to date.
    Mr. Chairman, in every economic downturn our nation sees a 
spike in entrepreneurship. As more Americans turn to 
entrepreneurship to support their families, we must ensure the 
assets are in place to help them succeed. The legislation I am 
presenting will improve the SBDC program and help new 
entrepreneurs and existing businesses flourish and create new 
jobs.
    I urge my colleagues to vote yes, and I yield back the 
balance of my time.
    Chairman GRAVES. Thank you.
    Are there any other members that wish to be recognized for 
a statement on H.R. 4121?
    Seeing none, I support the ranking member's bill for all 
the reasons that she provided. Repeatedly, this Committee has 
expressed concerns regarding SBA's creation of new and 
unauthorized entrepreneurial programs in this already 
overcrowded space, and this bill reflects the Committee's views 
and estimates of the last three years. Both Ranking Member 
Velaazquez and I have repeatedly stressed the need for SBA to 
strengthen authorized programs, such as SBDCs, rather than 
create initiatives that duplicate or overlap existing programs.
    So with that, the Committee now moves to consideration of 
H.R. 4121.
    Clerk, please report the title of the bill.
    CLERK. H.R. 4121, to amend the Small Business Act to 
provide for improvements to Small Business Development Centers.
    Chairman GRAVES. Without objection, H.R. 4121 is considered 
read and open for amendment at any point.
    Now with that----
    Mr. MURPHY. Mr. Chairman?
    Chairman GRAVES. Do you have an amendment?
    Mr. MURPHY. I have an amendment at the desk.
    Chairman GRAVES. Clerk, please report the amendment.
    CLERK. Amendment 1 to H.R. 4121 offered by Mr. Murphy of 
Florida.
    Chairman GRAVES. Without objection, the amendment is 
considered as read.
    Gentleman, you have five minutes.
    Mr. MURPHY. Thank you, Mr. Chairman.
    I offer a common sense amendment to help small businesses 
get back on their feet in the wake of natural disasters. 
Currently, Small Business Development Centers are required by 
law to assist only small businesses in the same state as them. 
This makes sense most of the time, but not in the aftermath of 
natural disasters, like Hurricanes Sandy and Katrina. More 
often than not, SBDCs in areas hit by natural disasters are in 
no position to assist their community because they themselves 
are in the midst of recovering. My amendment would allow 
unaffected SBDCs to assist small businesses in areas where the 
president has declared a natural disaster.
    I am sure you will all agree that this is a straightforward 
fix to a needless problem. I ask my colleagues to support this 
amendment, as well as the bipartisan bicameral Small Business 
Disaster Reform Act where I first introduced this provision and 
which has the support of multiple members of this Committee.
    I yield the balance of my time.
    Chairman GRAVES. Does any other member wish to be heard on 
the amendment?
    Ms. VELAAZQUEZ. Mr. Chairman, I strongly support the 
gentleman's amendment. I, myself, have seen the work the SBDCs 
have done right after 9/11 and right after Sandy, and it is 
worth having the opportunity to be able to allow for personnel 
from New York's SBDCs to go to Florida. They have the 
experience. They have the expertise. They will help small 
businesses navigate the bureaucratic processes with FEMA and 
SBA. So it is a good amendment and I am very proud to support 
it.
    Chairman GRAVES. Do any other members wish to be heard on 
the amendment?
    With that, I think the amendment makes all the sense in the 
world. I wish that members of Congress could do the same thing 
that we are trying to allow the SBDCs to do in times of 
emergency. I do not know if you know it, but members of 
Congress cannot use their office personnel or their funds to be 
able to help out another member of Congress if they have lost 
their office in a natural disaster. So this makes all the sense 
in the world.
    So with that, the question is on Amendment 1 offered by Mr. 
Murphy.
    All those in favor to 4121, all those in favor say aye.
    All opposed no.
    The opinion of the chair is the ayes have it.
    The ayes do have it.
    The amendment is agreed to.
    Mr. Payne?
    Mr. PAYNE. I have an amendment at the desk.
    Chairman GRAVES. Clerk, please report the amendment.
    CLERK. Amendment 2 to H.R. 4121 offered by Mr. Payne of New 
Jersey. Add at the end of the bullet the following: Section 1 
inclusions----
    Chairman GRAVES. Without objection, the amendment is 
considered read. And with that, Gentleman, you have five 
minutes.
    Mr. PAYNE. Thank you, Mr. Chairman.
    Prior to getting into the amendment, I have been listening 
to the discussion this afternoon and I feel that my colleagues 
offered some very good amendments around women and minorities 
because historically they have been disadvantaged in those 
areas.
    I used to work for my uncle at one time in a printing 
company and we went through the GSA process and the business 
grew and we flourished. And when we got into the private 
sector, the larger printing companies colluded to have the 
paper companies, not sell this one company, the only minority 
firm in that industry, not to sell us paper. We had to go to 
our senator at that time in New Jersey and compel the paper 
companies to start selling us the raw material again.
    So the amendments that were offered by my colleagues 
earlier to strengthen the focus on women and minorities are not 
about equality but equity. The problem with equality in this 
sense is that it addresses all groups without regard of the 
historical privilege that one group has had and continues to 
have.
    Equity on the other hand acknowledges the unfair treatment 
that has disadvantaged certain groups in attempts to level the 
playing field. Even with the proposed increases in contracting 
goals for women and minorities, we would not even begin to see 
the equity.
    I hope my colleagues can begin to understand equality 
versus equity as we move forward, and my amendment addresses 
the unemployed, another group facing tough times. The amendment 
looks at the current unemployment rate at 6.6 percent, but for 
every one job available there are three people actively 
searching for employment. Since 1995, small businesses have 
generated over 65 percent of the net new jobs and over 50 
percent of the working population is employed by small 
business.
    As we look to strengthen the SBDCs and expand support for 
entrepreneurs through Ranking Member Velaazquez's bill, we 
should also look to expand the pathway to entrepreneurship 
specifically for the unemployed. My amendment ads 
entrepreneurial education and support for the unemployed 
individuals to list the services provided by Small Business 
Development Centers. Entrepreneurship is one of the most viable 
career and economic growth opportunities, and as we shore up 
our efforts to support entrepreneurs, we must include the 
unemployed as well. And I hope this is one subgroup that we can 
understand we need to support. So I urge my colleagues to 
support this amendment.
    Chairman GRAVES. Do any other members wish to be heard on 
the amendment?
    Mr. BARBER. Thank you, Mr. Chairman. I want to 
wholeheartedly support Congressman Payne's amendment and thank 
him for his work to spur entrepreneurship in our communities. 
And I also want to say how much I appreciate his preliminary 
comments and what he had to say about equity.
    We had an opportunity several times today to bring equity 
to groups in our country that have been disadvantaged and we 
fail to do so. I hope we can reconsider and do a better job in 
the future, but I certainly want to commend the congressman for 
making that very clear to all of us.
    As a former small business owner, my wife and I ran a small 
business in our community for 22 years. We know, as Congressman 
Payne pointed out, that small businesses are our best job 
creators, and I believe that is why we must do more to ensure 
that potential entrepreneurs--people who are currently 
unemployed would be in that group--have the tools and the 
knowledge they need to succeed.
    I encourage all my colleagues on the Small Business 
Committee to support this amendment. I believe it is the right 
thing to do and hopefully we will all agree and vote yay on 
this amendment.
    Thank you. I yield back.
    Chairman GRAVES. Do any other members wish to be heard on 
the amendment?
    Seeing none, just to clarify real quick, the amendment 
continues to promote entrepreneurship as an option for the 
unemployed, and it does so by just using already existing 
resources that the SBDCs have. And with that, I do support it.
    The question is on the amendment offered by Mr. Payne, 
Amendment 2 to H.R. 2141.
    All those in favor say aye.
    All opposed no.
    The opinion of the chair is the ayes have it.
    The ayes do have it.
    The amendment is agreed to.
    Does any other member wish to seek recognition with an 
amendment?
    Seeing none, the question is on agreeing to H.R. 4121 as 
amended.
    All those in favor say aye.
    All opposed no.
    The opinion of the chair is the ayes have it.
    H.R. 4121 is agreed to.
    Without objection, a quorum being present, the bill is 
favorably reported to the House.
    Without objection, the Committee staff is authorized to 
correct punctuation and make other necessary technical changes 
and conforming changes.
    With that, the last bill that we have is H.R. 2452, the 
Women's Procurement Program Equalization Act of 2014 introduced 
by Ranking Member Velaazquez.
    I now yield Nydia for her remarks on H.R. 2452.
    H.R. 2452
    Ms. VELAAZQUEZ. Thank you, Mr. Chairman.
    Despite the increased presence of women-owned businesses in 
our economy, the federal government has continually failed to 
meet its 5 percent procurement goal for women-owned small 
businesses. Data for Fiscal Year 2013 indicates that only 4.3 
percent of eligible federal contracting dollars were awarded to 
these businesses. Failure to meet this goal deprived women-
owned businesses of over $2 billion in contracting dollars. 
Through the Women's Procurement program, women-owned small 
businesses are eligible for contracts in 83 industries that 
have historically had underutilization of women-owned 
businesses. However, since its inception, the program has faced 
obstacles as it took over a decade to adopt rules that would 
put the program into effect.
    While its implementation was great progress, it by no means 
fixed the inequity that exists as the Women's Procurement 
program continues to lag behind. Simply put, contracting 
officers lack the options under this program that exist under 
other programs. To address these issues, H.R. 2452, the Women's 
Procurement Program Equalization Act of 2013 seeks to give 
federal agencies the tools to award more contracts to women-
owned businesses.
    Let me be clear. The bill does not create new tools solely 
for women-owned businesses, but rather allows contracting 
officers to use the tools that are currently available under 
existing programs, such as the HUBZone and 8(a) initiatives. 
The main issue here is about parity.
    The disparity in the tools available to contracting 
officers to award contracts to women-owned businesses has 
limited the effectiveness of the program. In the last fiscal 
year, there were only 807 contracting actions worth $40 million 
awarded through the Women's Procurement program. This amounts 
to only .0004 percent of dollars awarded to small businesses 
and only .0001 percent of eligible contracting dollars. The 
program has also been hindered by flaws in its certification 
process. Existing law has asked businesses to certify their 
eligibility for the program and then be verified by the agency 
or third parties. With agency procurement officers acting as 
the certifiers, the certification process has become bogged 
down. These officials should be focused on awarding contracts 
to women-owned small businesses, not spending resources on an 
extensive certification process. To address this issue, the 
legislation puts SBA in charge of certifying participants. If 
unable to do so, the SBA may continue to approve third-party 
certifiers to carry out such responsibilities. Until we can 
ensure a uniform certification process, female business owners 
will never reap the full benefits of the Women's Procurement 
program.
    We continually hear that what small businesses need most in 
this economy are customers. Well, our own federal government 
continues to be the largest customer that a small business can 
have, yet the federal marketplace remains largely untapped by 
women-owned businesses. Additionally, by ensuring that these 
businesses receive their fair share of contracting dollars, we 
could further increase job creation. If the 5 percent goal was 
met, women-owned businesses could create over 673,000 new jobs. 
Strengthening this initiative is critical to the almost 8 
million women-owned businesses in the United States. Making up 
nearly 30 percent of all businesses across the country and 
generating $1.2 trillion in revenue, they are a rapidly growing 
part of our national economic fabric. Ensuring that they have 
access to government contracts is essential for their continued 
growth and that is exactly what this bill will do.
    Thank you, Mr. Chairman. I yield back.
    Chairman GRAVES. Do any other members wish to be recognized 
for a statement on 2452.
    Mr. BARBER. Mr. Chairman, I move to strike the last word.
    Chairman GRAVES. Go ahead.
    Mr. BARBER. I want to thank Ranking Member Velaazquez for 
introducing this important legislation, and I am proud to 
cosponsor the bill which provides additional support to women 
business owners in their efforts to make contracts or have 
contracts with the Federal Government.
    We can and must do better. We have a goal for women-owned 
businesses under the law which we are not meeting, and we have 
to do better to bring women-owned businesses into contracts 
with federal agencies. Women-owned businesses are a critical 
part of the economy in my Southern Arizona district, and of 
course, nationwide. And the steps we take to help these small 
businesses will boost the overall economy as we continue 
working to improve the jobs market. This bill gives procurement 
personnel the authority they need to expand the number of 
women-owned businesses being awarded contracts and allows the 
SBA to meet the goal of 5 percent.
    I encourage my colleagues on both sides of the aisle to 
support and vote for this important bill.
    Thank you, Mr. Chairman. I yield back.
    Chairman GRAVES. Any other members wish to be recognized on 
H.R. 2452?
    Seeing none, I do support 2452. I think the legislation 
does bring some parity among the SBA's contracting programs, 
and that is something this Committee has long supported.
    So the Committee now moves to consideration of H.R. 2452.
    Clerk, please report the title.
    CLERK. H.R. 2452, to amend the Small Business Act with 
respect to procurement program for women-owned small business 
concerns and for other purposes.
    Chairman GRAVES. Without objection, H.R. 2452 is considered 
read and open for amendment at any point.
    Does anyone wish to offer an amendment?
    Seeing none, the question is on agreeing to H.R. 2452.
    All those in favor say aye.
    All opposed votes no.
    It is the opinion of the chair the ayes have it.
    The ayes do have it.
    H.R. 2452 is agreed to.
    Without objection, a quorum being present, the bill is 
favorably reported to the House.
    And without objection, again, the Committee staff is 
authorized to correct punctuation and make other necessary 
technical changes and conforming changes.
    And with that, I thank everybody for coming back. And the 
markup is adjourned.
    [Whereupon, at 4:28 p.m., the Committee was adjourned.]
    
                            A P P E N D I X


[GRAPHIC] [TIFF OMITTED] 

                                 [all]
</pre></body></html>
